                                              1   OFFICE OF JOB CORPS
                                              2
                                              3
                                          4
                                          5
                                          6
Office of Inspector General—Office of Audit
                                          7
                                          8
                                          9
                                         10
                                         11
                                         12
                                         13

                                         14

                                         15

                                         16       AUDIT OF CINCINNATI JOB CORPS CENTER’S
                                         17       STUDENT LEAVE AND UNEXCUSED ABSENCES
                                         18
                                         19
                                         20
                                         21
                                         22
                                         23
                                         24
                                         25
                                         26
                                         27
                                         28




                                                                        Date Issued: March 30, 2007
                                                                        Report Number: 03-07-003-01-370
U.S. Department of Labor                                 March 2007
Office of Inspector General
Office of Audit                                          Audit of Cincinnati Job Corps Center’s
                                                         Student leave and Unexcused Absences

BRIEFLY…                                                 WHAT OIG FOUND
Highlights of Report Number: 03-07-003-01-370, to        For the period June 1, 2002 through May 31, 2006,
the National Director of the Office Job Corps.           the Center put 264 students on the PDOF status at
                                                         least one or more days during their training. We
WHY READ THE REPORT                                      reviewed the records for 150 of these students who
                                                         were in PDOF status more than 10 days and
OIG conducted an audit to follow up on a previous
                                                         determined the Center improperly used the PDOF
audit of issues raised in a complaint made against
                                                         status to extend the stay for 94 of these students.
the Management and Training Corporation (MTC),
                                                         This occurred because of a weak internal control
operators of the Cincinnati Job Corps Center (the
                                                         environment under the previous Center Director. As
Center). The Center has a training capacity for 225
                                                         a result, the Center overstated its on-board strength,
students.
                                                         which depicts the extent to which the Job Corps
                                                         centers operate at full capacity and is one of the
The previous audit 1 substantiated that the Center       efficiency measures that Job Corps uses to
used the Present for Duty Off Center (PDOF) and          determine center contractor performance. The
other leave to extend the students’ termination dates    Center is subject to liquidated damages totaling
beyond their actual departure from the Center and        $208,121, because it did not comply with contract
that there was a pattern of excessive unexcused          requirements prohibiting the artificial extension of
absences. However, the previous audit did not            students’ separation dates.
determine the effect of extending the stay of the
students, and the audit could not determine if the       The Center’s process for addressing the behavior of
Center took appropriate action on unexcused              students who had excessive unexcused absences
absences because the Center destroyed the student        was inconsistent and not effective. This occurred
Center Standards Office (CSO) file 6 months after        because the Center did not follow its SOP on
the separation date unless the student separated         student attendance and took action that did not
from the Job Corps Program for disciplinary reasons.     correct the students’ attendance problem. As a
                                                         result, the students did not receive the necessary
WHY OIG DID THE AUDIT                                    academic and social development during class
The purpose of our audit was to answer the               hours, and excessive unexcused absences could
following questions:                                     have a negative impact on the students’
                                                         employability.
    1. To what extent did the Center misuse PDOF
       and other leave to artificially extend            WHAT OIG RECOMMENDED
       students’ length of stay and what was the         We recommend that the National Director of the
       effect?                                           Office of Job Corps:
                                                         1. assess MTC liquidated damages of $208,121;
    2. Did the Center take action to address the         2. require MTC to ensure that the Center follows its
       behavior of students who had excessive                SOP in addressing the behavior of students who
       unexcused absences from class?                        have excessive unexcused absences; and
                                                         3. direct MTC to require that the Center identify the
                                                             underlying causes that may be unique to non-
READ THE FULL REPORT                                         resident students who have excessive
To view the report, including the scope,                     unexcused absences and determine if they need
methodology, and the National Director of the Office         to develop appropriate procedures to address
of Job Corps’ response, go to:                               the students’ behavior.
http://www.oig.dol.gov/public/reports/oa/2007/03-07-
003-01-370                                               In response to the draft report, the Office of Job
                                                         Corps expressed appreciation for the audit but did
                                                         not specifically address the recommendations. The
                                                         response did state that Job Corps is undertaking a
                                                         review of policies related to performance data to
1
  Complaint Involving the Cincinnati Job Corps Center,   determine if they need to be strengthened and/or
September 29, 2006, Audit Report No. 03-06-004-01-370.   clarified.
                       Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
   The Center Improperly Used Present for Duty Off Center Status and Other
   Leave to Extend the Stay of 94 Students Who Left the Job Corps Program........ 8

   The Center Took Inconsistent and Ineffective Action On Students Who Had
   Excessive Unexcused Absences ........................................................................... 15

EXHIBITS...................................................................................................................... 23
   A. Duty/Pay/Leave Status Categories .................................................................... 25

   B. Differences in Separation Dates and Amount of PDOF Days Questioned ..... 29

   C. Examples of Center Extending Students' Separation Dates ........................... 33

   D. Schedule of Students Tested With Excessive Unexcused Absences ............ 35


APPENDICES ............................................................................................................... 37
   A. Background ......................................................................................................... 39

   B. Objectives, Scope, Methodology, and Criteria ................................................. 37

   C. Acronyms and Abbreviations ............................................................................ 43

   D. Agency Response to Draft Report..................................................................... 45




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                       Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



Executive Summary
OIG conducted an audit to follow up on a previous audit 1 of issues raised in a complaint
made against the Management and Training Corporation (MTC), operators of the
Cincinnati Job Corps Center (the Center). The Center has both residential and non-
residential students. The Center’s capacity for training is 225 students. This prior audit
substantiated that the Center used the Present for Duty Off Center (PDOF) and other
leave to extend the students’ termination dates beyond their actual departure from the
Center and that there was a pattern of excessive unexcused absences. However, the
previous audit did not determine the effect of extending the stay of the students, and the
audit could not determine if the Center took appropriate action on unexcused absences
because the Center destroyed the student Center Standards Office (CSO) file 6 months
after the separation date unless the student separates from the Job Corps Program for
disciplinary reasons. Therefore, our objectives were to determine:

     1. To what extent did the Center misuse PDOF and other leave to artificially extend
        students’ length of stay and what was the effect?

     2. Did the Center take action to address the behavior of students who had excessive
        unexcused absences from class?


Results

The Center Improperly Used Present for Duty Off Center Status and Other Leave
to Extend the Stay of 94 Students Who Left the Job Corps Program

From June 1, 2002 through May 31, 2006, over 1,400 students were enrolled at the
Center, of whom, 264 were on PDOF status sometime during their training. We
reviewed documentation for all 150 students who were on the PDOF status more than
10 days and found that the Center improperly used the PDOF status and/or
combinations of various leave categories to extend the separation dates of 94 students
beyond their actual departure from the Center. The number of days extended beyond
the separation date for the 94 students totaled 2,967. The Center approved the PDOF
status for these students for either job search or off Center work-based learning.
However, the Center did not have evidence to support that job search or work-based
learning actually occurred and that the amount of time in PDOF status was reasonable.
This occurred because of a weak internal control environment under the previous
Center management which resulted in not following the Center’s standard operating
procedures (SOP) or the Job Corps Policy Requirements Handbook (PRH), which were
designed to ensure the proper use of the PDOF status. We found no improper use of
the PDOF status after MTC appointed the current Center Director in May 2004.

1
    Complaint Involving the Cincinnati Job Corps Center, September 29, 2006, Audit Report No. 03-06-004-01-370.

U.S. Department of Labor—Office of Inspector General                                                              3
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

Because the Center extended the students’ separation dates beyond their actual
departure from the Center, the Center overstated its on-board strength (OBS), which is
one of the efficiency measures that Job Corps uses to determine center contractor
performance. OBS depicts the extent to which the centers operate at full capacity.
Also, the contractor operating the Center is subject to liquidated damages because the
Center did not comply with contract requirements prohibiting the use of leave to
artificially extend student separation dates. We calculated that the contractor is subject
to $208,121 in liquidated damages.

Center and MTC officials disagreed with our conclusion that the Center is subject to
liquidated damages. According to these officials, one of the criteria the audit used to
question the PDOF days was the Center’s SOP. However, the PRH in effect at the time
the questioned PDOF days occurred did not provide a limit on the number of days that
could be used. The officials’ position is that the PRH takes precedent over the Center’s
SOP. The officials also told us that although the PRH required student career activity to
be documented in the Center Information System (CIS), the Center did not fully
implement CIS until 2006. They said the Center was not required to maintain the
documentation that may have supported the PDOF days past 3 years.

The Center and MTC officials’ positions did not change our conclusion. Concerning the
use of the Center’s SOP to question the PDOF days, PRH Chapter 5.1, Program
Management, required the Center to establish SOPs. The SOPs cited in this report
show they were designed to ensure that the PDOF was properly used by limiting the
number of days. Concerning the officials’ position that they were not required to
maintain documentation that may have supported the job search and work-based
learning activities past 3 years, 54 of the 94 students for the PDOF days we questioned
had separation dates within 3 years of the date (June 21, 2006) when we notified the
Center of our audit and when we made our documentation request. The Center did not
have documentation to support the job search and work-based learning for these 54
students. This led us to conclude the same situation existed for the remaining 40
students who separated from the Center over 3 years from the date of our audit
notification and documentation request

The Center Took Inconsistent and Ineffective Action On Students Who Had
Excessive Unexcused Absences

The Center’s process for addressing the behavior of students who had excessive
unexcused absences was inconsistent and not effective. This occurred because the
Center did not follow its SOP on student attendance and took action that did not correct
the students’ attendance problem. Additionally, Center management told us they
attribute multiple unexcused absences as primarily due to the large population of non-
resident students. (Of the 37 students tested in our audit, 81 percent were non-
resident students). As a result, the students did not receive the necessary academic
and social development during class hours, and excessive unexcused absences could
have a negative impact on the students’ vocational, educational and social development
and the students’ employability.


4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



Recommendations

We recommend that the National Director of the Office of Job Corps:

1. assess MTC liquidated damages totaling $208,121;

2. require MTC to ensure that the Center follows its SOP in addressing the behavior of
students who have excessive unexcused absences, and document the action taken and
results; and

3. direct MTC to require that the Center identify the underlying causes that may be
unique to non-resident students who have excessive unexcused absences and
determine if they need to develop appropriate procedures to address the students’
behavior.

Agency Response

In response to the draft report, the National Director of the Office of Job Corps
expressed appreciation for the audit, but did not specifically address the report
recommendations.

The National Director stated that Job Corps takes very seriously the need for high data
integrity in the program. Having data accurately captured and presented is critical to
determining program performance and overall effectiveness. Consequently, the
National Director stated that Job Corps is undertaking a targeted review of existing
policies to determine if relevant policies need to be strengthened and/or clarified.

See Appendix D for the entire response from the National Director of the Office of Job
Corps.

OIG Conclusion

The recommendations in the report will be resolved when the National Director of the
Office of Job Corps provides a corrective action plan with milestone dates for
addressing the weaknesses found and the corresponding recommendations in this
report.




U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                  Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                          Assistant Inspector General’s Report

Ms. Esther R. Johnson
National Director
Office of Job Corps
U.S. Department of Labor
Room N-4463
200 Constitution Ave., NW
Washington, DC 20210

OIG conducted a follow-up audit on a previous audit of issues raised in a complaint
made against the Management and Training Corporation (MTC), operators of the
Cincinnati Job Corps Center (the Center). The previous audit substantiated that the
Center used the Present for Duty Off Center (PDOF) status and other leave to extend
students’ termination dates beyond their actual departure from the Center and that there
was a pattern of excessive unexcused absences. However, the previous audit did not
determine the effect of extending the stay of the students, and could not determine if the
Center took appropriate action on unexcused absences because the Center destroys
the student Center Standards Office (CSO) file 6 months after the separation date
unless the student separated from the Job Corps Program for disciplinary reasons.
Therefore, our objectives were to determine:

    1. To what extent did the Center misuse PDOF and other leave to artificially extend
       students’ length of stay and what was the effect?

    2. Did the Center take action to address the behavior of students who had excessive
       unexcused absences from class?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our scope, methodology, and criteria are detailed in Appendix B.




7                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

Objective 1 – To what extent did the Center misuse PDOF and other leave to
artificially extend students’ length of stay and what was the effect?

Finding – The Center Improperly Used PDOF Status and Other Leave to Extend
the Stay of 94 Students Who Left the Job Corps Program.

From July 1, 2002 through May 31, 2006, over 1,400 students were enrolled at the
Center, of whom 264 were on PDOF status sometime during their training. We
reviewed documentation for all 150 students who were on Present for Duty Off Center
(PDOF) status more than 10 days, and found the Center improperly used the PDOF
status and/or combinations of various leave categories to extend the separation dates of
94 students beyond their actual departure from the Center. The number of days
extended beyond the separation date for the 94 students totaled 2,967. The Center
approved the PDOF status for these students for either job search or off-Center work-
based learning. However, the Center did not have evidence to support that job search
or work-based learning actually occurred and that the amount of time in PDOF status
was reasonable. This occurred because of a weak internal control environment under
the previous Center management which resulted in not following the Center’s standard
operating procedures (SOPs) or the Job Corps Policy Requirements Handbook (PRH),
which were designed to ensure the proper use of the PDOF status. We found no
improper use of the PDOF status after MTC appointed the current Center Director in
May 2004.

Because the Center extended the students’ separation dates beyond their actual
departure from the Center, the Center overstated its on-board strength (OBS), which is
one of the efficiency measures that Job Corps uses to determine center performance.
OBS depicts the extent to which the Job Corps centers operate at full capacity, which is
225 students. Also, the contractor operating the Center, MTC, is subject to liquidated
damages because the Center did not comply with contract requirements prohibiting the
use of leave to artificially extend student separation dates. We calculated that the
contractor is subject to $208,121 in liquidated damages.

According to Job Corps’ Policy Requirements Handbook (PRH), Appendix 501a, each
Job Corps center has a planned capacity (beds available). OBS is the percentage of
capacity utilized on a cumulative basis for the program year. According to MTC’s
Residential Living Training Manual, OBS is determined by the average number of
students who are enrolled in the program compared to the center’s contracted
enrollment capacity. The manual further states that OBS is affected by the Weekly
Termination Rate (WTR). The WTR consists of all students who separate from the
program. The PRH, Appendix 501a, shows that Job Corps’ goal for OBS for all centers
is 100 percent.

The PRH, Chapter 6.1 R2a, Administrative Support, Student Attendance, Leave, and
Absences, states that leave shall not be granted as a means of artificially postponing
the student’s separation date. The PRH, Chapter 6, Administrative Support Exhibit 6-1,
defines the duty and leave status categories, the type of allowed leave, and any

8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                  Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

limitation on the number of days allowed for the duty and leave status categories. The
PRH provides that PDOF is a type of duty status category that can be used for students
involved in authorized activities off center such as: regional or national competitions or
awards, work-based learning or Vocational Skills Training off center, recruiting drives,
escort duty, out-of-town job interviews, and apprenticeship jobs or armed forces
processing. 1

See Exhibit A for a listing and explanation of the duty and leave status categories.

For the 150 students reviewed, 75 percent were on the PDOF status for job search, 17
percent were on PDOF status for work-based learning, and 8 percent were on PDOF
status for other purposes such as military, illness, school, etc.

PDOF for Job Search

The Center’s Standard Operating Procedures, Section 324.7(b), Job Search Leave
Procedures (PDOF), dated May 1, 2002, states: “As part of the Career Development
Services System potential graduates are encouraged, during the Career Transition
Period, to being actively seeking employment in their field of training. This search may
encompass the local area, their home area, or any other geographical area, depending
on the potential graduate's willingness to relocate upon completion of the Job Corps
program. Eligibility for job search leave is determined by the Retention Committee.”
The SOP requires the Job Corps Center to:

    •   limit job search-related PDOF to a maximum of 20 days per 6 months;

    •   limit initial job search-related PDOF to 5 days and any subsequent leave or leave
        extension for not more than a combined limit of 10 training days per 6-month
        period; and

    •   ensure that, prior to job search, potential graduates have a minimum of three
        verified job interviews for the week of the scheduled leave.

PDOF for Work-Based Learning

The PRH, Chapter 3.7, dated July 1, 2001, provides that Job Corps centers incorporate
work-based learning as a primary instructional method of training and such activities
may include job shadowing, internships, and paid and unpaid work assignments. The
PRH requires the Job Corps centers to:

    •   provide work-based learning that involve students in work experiences related to
        the career field for which they are preparing and occur throughout the student's
        enrollment;

1
 All PDOF status and leave we are questioning for this audit occurred before May 2004. Unless noted
otherwise, the PRH in effect during this period is dated July 1, 2001.


U.S. Department of Labor—Office of Inspector General                                                  9
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



     •   develop a written agreement with the employer when a student is assigned to a
         work site;

     •   monitor all active work-based learning sites; and

     •   ensure all student work-based learning assignments and progress are
         documented and recorded using the Center Information System (CIS).

In August 2001, the Job Corps Chicago Regional Office issued a Regional Career
Development Services System (CDSS) plan. The CDSS plan was designed so that the
Job Corps centers and Career Transition Services staff would pro-actively work with
potential graduates on their transition to a career prior to their projected separation date.
This was to ensure the successful outcome and to coordinate pre-graduation job
searches and arrangement for transition services tailored to the potential graduate’s
needs. 2 The CDSS plan required that the Center develop a Personal Career
Development Plan (PCDP) for each potential graduate and use the PCDP as a case
record to identify all required support service and job or educational goals. The CDSS
stated that the Job Corps center Career Development Manager, Counselors, and
Career Transition Services staff uses the PCDP to:

     •   record counseling sessions and progress updates with potential graduates;
     •   monitor timely initiation of job development;
     •   provide job search and transition services;
     •   assist in post-graduate placement;
     •   obtain employer feedback; and
     •   provide support service delivery.

Our analysis of data obtained from the Job Corps Data Center covering the period July
1, 2002 through May 31, 2006, identified 264 students whom the Center put on PDOF
status 1 or more days. Of these 264 students, we tested 150 who had more than 10
days on PDOF status. Our testing consisted of reviewing all documentation provided by
the Center to support the students' PDOF status. See the Methodology Section of this
report for details on the type of documentation used in our testing.

For 94 students, the Center used PDOF status to delay reporting students as
terminated beyond their actual departure date from the Center. See Exhibit B for a list
of the separation dates and amount of PDOF days questioned for the 94 students. We
also found incidents in which the Center used PDOF status combined with Unpaid
Administrative Leave and Absent Without Leave (AWOL) to delay reporting students as
terminated. The purposes that the Center used for putting these students on PDOF
status were mostly for job search, job interviews, or work-based learning. We
questioned the days these students were on PDOF status because of the following:

2
 Career Transition Services are provided by contractors responsible for assisting students in job placement and
support services after they separate from the Job Corps center.

10                                                  U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



   •   For job search, the amount of days exceeded the amount allowed by the SOP
       and there was no evidence that the student:

          had at least three verified job interviews prior to the job search; or

          returned to the Center, or telephoned the Center, to discuss the results of the
          job search activities with the Center Career Development Manager. We
          assumed that had the job search occurred, there should have been
          documentation showing the results of the job search activities.

   •   For work-based learning, there was no evidence of:

          a written agreement with the employer; or

          the work-based learning assignments and progress.

We also found evidence of some students’ circumstances that demonstrated the
student no longer wanted to be in the program, but the Center put the students on the
PDOF status. We considered this additional support for our questioning the Center’s
practice of assigning PDOF status to students. See Exhibit C for examples of where
the Center extended students’ separation dates by using the PDOF status and other
leave.

We could not determine the underlying cause for why the Center management and staff
did not comply with the Center’s SOP when they assigned PDOF status to students for
job search or comply with the PRH when they assigned PDOF status to students for
work-based learning. All of the PDOF status days we are questioning occurred before
the current Center Director, who was appointed Director in May 2004. Also, the Center
staff involved in placing students on PDOF status for the days we are questioning were
no longer employed when we started our field work for this audit. Additionally, the
Center did not maintain minutes of meetings in which students’ retention status was
discussed.

We concluded that the control environment was weak under the previous Center
Director because she signed most of the PDOF Notification Forms without ensuring that
the requirements in the SOP and PRH were followed. Additionally, we found that the
monthly use of PDOF status days for the Center dropped significantly starting April
2004 (see chart below). The prior Center Director resigned in February 2004. The
current Center Director, assigned in May 2004, reported that he made it very clear that
PDOF status should be rarely used and be limited in the number of days. The Center
Director said that staff had different interpretations of the PRH criteria for using PDOF
which probably led to the situation at the Center before his assignment.




U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

Because PDOF was not misused starting in May 2004, we conclude that no further
action is needed to improve the internal controls designed to ensure that PDOF is used
properly.


                                         Monthly Days in PDOF Status

            450
            400
            350
            300
     Days




            250
            200
            150
            100
             50
              0
                                             Jun-03




                                                                                 Jun-04




                                                                                                                     Jun-05




                                                                                                                                                         Jun-06
                  Sep-02
                           Dec-02
                                    Mar-03


                                                      Sep-03
                                                               Dec-03
                                                                        Mar-04


                                                                                          Sep-04
                                                                                                   Dec-04
                                                                                                            Mar-05


                                                                                                                              Sep-05
                                                                                                                                       Dec-05
                                                                                                                                                Mar-06
                                                                         Month - Year


The contract provided for liquidated damages 3 for each day we found that the Center
artificially extended the students’ separation date. In Section G, Item IV of the contract,
Liquidated Damages For Failure To Comply With Regulations For Terminating
Students, the contractor agreed to refundable costs to the Government for each day a
student is retained (counted in the reported on-board-strength) in violation of the PRH
requirement that leave shall not be granted as a means of artificially postponing
students’ separation date 4 . The costs are to be determined by dividing the “annual
student cost” (“cost per student year”), as stated in the contract, by 365. If the annual
student cost is not stated for any given year, it shall be computed by dividing the total
contract amount for the year by the planned average on-board strength.

Using the contract amount and the planned average on-board strength, we determined
the refundable costs by dividing the total contract amount for each year by the planned
average on-board strength.

We determined that the Center contractor is subject to $208,121 in liquidated damages.
The following table shows the refundable cost for the number of days we determined


3
  Liquidated damages are an amount stipulated in the contract which the parties agree is a reasonable estimation of
the damages owing to one in the event of a breach by the other.
4
  The PRH requirement in effect at the time the contract was signed in 1999, was Chapter 4.1. Job Corps moved the
requirement to Chapter 6.1 in July 2001, when it revised the PRH.

12                                                                      U.S. Department of Labor—Office of Inspector General
                                                                                            Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

the student was counted in the reported on-board strength beyond their actual
separation date.




U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences



                          Computation of Liquidated Damages
                                                Number of
                                                   Days
                                                 Students’
     Time Period by Contract Year in Number Separation                        Amount of
     Which the Center Extended the       of      Date Was    Daily            Liquidated
            Separation Date           Students Extended      Rate             Damages
      August 2002 through April 2003     32          886   $ 69.03            $ 61,161
        May 2003 through April 2004      62        2,081   $ 70.62             $ 146,960
                                Total    94        2,967                      $ 208,121

Center and MTC officials disagreed with our conclusion that the Center is subject to
liquidated damages. According to these officials, one of the criteria the audit used to
question the PDOF days was the Center’s SOP. However, the PRH in effect at the time
the questioned PDOF days occurred did not provide a limit on the number of days that
could be used. The officials’ position is that the PRH takes precedent over the Center’s
SOP. The officials also told us that although the PRH required student career activity to
be documented in the Center Information System (CIS), the Center did not fully
implement CIS until 2006. They said the Center was not required to maintain the
documentation that may have supported the PDOF days past 3 years.

The Center and MTC officials’ positions did not change our conclusion. Concerning the
use of the Center’s SOP to question the PDOF days, PRH Chapter 5.1, Program
Management, required the Center to establish SOPs. The SOPs cited in this report
showed they were designed to ensure that the PDOF was properly used by limiting the
number of days. Concerning the officials’ position that they were not required to
maintain documentation that may have supported the job search and work-based
learning activities past 3 years, 54 of the 94 students for the PDOF days we questioned
had separation dates within 3 years of the date (June 21, 2006) when we notified the
Center of our audit and when we made our documentation request. The Center did not
have documentation to support the job search and work-based learning for these 54
students. This led us to conclude the same situation existed for the remaining 40
students who separated from the Center over 3 years from the date of our audit
notification and documentation request.

Recommendation

1. We recommend the National Director of the Office of Job Corps assess MTC
liquidated damages totaling $208,121.

Agency Response

In response to the draft report, the National Director of the Office of Job Corps
expressed appreciation for the audit, but did not specifically address the report
recommendations.

14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences


The National Director stated that Job Corps takes very seriously the need for high data
integrity in the program. Having data accurately captured and presented is critical to
determining program performance and overall effectiveness. Consequently, the Job
Corps is undertaking a targeted review of existing policies to determine if relevant
policies need to be strengthened and/or clarified.

OIG Conclusion

The recommendation will be resolved when the National Director of the Office of Job
Corps provides a corrective action plan with milestone dates for addressing the
assessment of liquidated damages along with planned implementation dates.


Objective 2 – Did The Center Take Action To Address the Behavior of Students
Who Had Excessive Unexcused Absences From Class?

Finding –The Center Took Inconsistent and Ineffective Action On Students Who
Had Excessive Unexcused Absences.

The Center’s process for addressing the behavior of students who had excessive
unexcused absences was inconsistent and not effective. This occurred because the
Center did not follow its SOP on student attendance and took action that did not correct
the students’ attendance problem. Additionally, Center management told us they
attribute multiple unexcused absences as primarily due to the large population of non-
resident students. (Of the 37 students tested in our audit, 81 percent were non-resident
students). As a result, the students did not receive the necessary academic and social
development during class hours, and excessive unexcused absences could have a
negative impact on the students’ vocational, educational and social development and
the students’ employability.

PRH Chapter 3.4, Student Standards and Conduct, Section R2, Rules and Sanctions,
dated November 15, 2004, states: “Centers shall develop standards of conduct,
including a set of rules and sanctions.” PRH Exhibit 3-1, Infraction Levels and
Appropriate Center Actions, shows that absent from assigned activity is a Level III
infraction and the Job Corps Center action is to sanction the student in accordance with
the Center’s policy and behavior review panel.

The Center’s SOP, Student Attendance Systems, dated May 1, 2002, provides the
policy on student attendance. According to the following parts of the SOP, the Center is
expected to take action on students who fail to attend classes.

       •   Paragraph B 1 - Failure to attend classes or walking off the center during
           class hours is a violation of center rules and regulations and interferes with
           students’ vocational, educational and social development.


U.S. Department of Labor—Office of Inspector General                                        15
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

       •   Paragraph B 4 - The center views class attendance as paramount to the
           students’ development in all areas of performance and has established this
           intolerance for absence policy to reflect this view.

       •   Paragraph B 5 - Since attendance is an employability issue, it is imperative
           that our students understand its importance.

Paragraph B 9 and Section C, provides the following steps should be taken to address
attendance problems:

       •   First Time Offenders: Students who have five unexcused absences within a
           2-week period attend a counseling session.

       •   Second Time Offenders: Students meet with the Attendance Committee
           and sign a performance contract.

       •   Third Time Offenders: Students meet with the Center Standards Office
           (CSO).

       •   Fourth Time Offenders: Students are referred to the CSO and then referred
           to the Center Review Board which may lead to separation.

The Center made minor revisions to the SOP in January 2006. The number of
unexcused absences within a 2-week period was increased from 5 to 8. The number of
steps to address attendance problems was reduced from four to three.

       •   First Time Offenders: Students received contact and verbal warning by
           attendance committee when they have 8 unexcused absences within a 2-
           week period attend a counseling session.

       •   Second Time Offenders: Students meet with the Attendance Committee
           and sign a performance contract and receive sanctions.

       •   Third Time Offenders: Students are referred to the CSO for fact-finding
           board and recommendations for separation.

According to the Center Standards Officer (CSO), on the first and third Monday of the
month, the Center Records Supervisor initiates a printout listing students absent from
training. The information is provided to the Intervention Panel comprised of the CSO,
Academic Manager, Vocation Manager, Counseling Staff or Designee, Residential
Living Manager (RLM), Programs Director, and Security. Depending on the level of the
violations, the Center schedules a meeting with the students who are attendance
violators and the appropriate staff.

The Center Director told us he implemented a program to address student behavior
including class attendance called the Managers Accessing Panther Pride (MAPP).

16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                  Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

When students are placed on the MAPP, they must carry a progress card and obtain
the instructor’s signature to verify their attendance. The Center holds a weekly MAPP
meeting to discuss the student’s progress. Students remain on MAPP until they are
terminated from the program. If the student’s behavior does not improve, the student is
referred to the Retention Board which meets to determine if the student should be
separated from the program for non-compliance with Center rules.

We examined excessive unexcused absences for any student who had an incident of 5
or more absences 5 within a 2-week period and for whom these incidents occurred more
than 9 times during the student’s enrollment at the Center. We reasoned that the
student should have changed his or her behavior after going through the multi-step
progressive action provided in the Center’s SOP.

We obtained the universe of all students who had unexcused absences from class for
the period June 1, 2005, through May 31, 2006. We identified for testing those students
who had 9 or more incidents of excessive unexcused absences. The number of
students totaled 50. We considered these students the worst offenders of the Center’s
policy on class attendance. Of the 50, counseling records were not available for 13
students because they had been separated for over 6 months at the time we started our
audit at the Center. The Center destroys student counseling records 6 months after the
student’s termination date, unless they separate them for disciplinary reasons. We
found that this practice complied with the PRH. Therefore, the Center had counseling
records for 37 of the 50 students identified for testing.

Our testing focused on whether the Center followed its SOP on classroom attendance.
We also considered any documented action taken by the Center outside of the
requirements in the SOP that dealt with addressing the student’s classroom attendance
problems.

We found that the Center did not follow its SOP for classroom attendance. Most of the
action taken by the Center consisted of counseling meetings with the students to
discuss class attendance. We also found instances in which the Center placed the
students on the MAPP but the students continued to have unexcused absences. There
were instances in which the students signed an attendance contract. However, the
students signed the contracts as part of the enrollment process instead of at the time
when unexcused absences became a problem. Additionally, there were instances
where the student was referred to the Center’s Fact Finding Board for termination.
However, the termination usually occurred after the student accumulated a significant
amount of unexcused absences. Overall, we concluded the action taken by the Center
was inconsistent and not effective, and students continued to have unexcused
absences throughout their enrollment at the Center.

Exhibit D shows the number of incidents of excessive unexcused absences and the
total hours for the unexcused absences for the 37 students tested.

5
 After January 1, 2006, the number of unexcused absences increased to eight and we considered this in
our review.

U.S. Department of Labor—Office of Inspector General                                               17
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences


The Center Director told us he has been working with his staff to ensure the SOPs for
class attendance are followed and he has seen a decrease in the amount of unexcused
absences after our audit period.

Recommendations

We recommend that the National Director of the Office of Job Corps require MTC to
ensure that the Center:

2. follow its SOP in addressing the behavior of students who have excessive
unexcused absences and document the action taken and results; and

3. identify the underlying causes that may be unique to non-resident students who have
excessive unexcused absences and determine if they need to develop appropriate
procedures to address the students’ behavior.

Agency Response

The National Director of the Office of Job Corps response to the draft report did not
specifically address the recommendations related to excessive unexcused absences at
the Center.

OIG Conclusion

The recommendations will be resolved when the National Director of the Office of Job
Corps provides a corrective action plan with planned milestone dates for addressing the
weaknesses and recommendations related to unexcused absences.




Elliot P. Lewis
December 18, 2006




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




Exhibits




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                       Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                                       EXHIBIT A

                                                                                     8
                                  Duty/Pay/Leave Status Categories

            Category Type                             Purpose                             Criteria/Limitation
                                         •   Regional/National competitions
                                             or awards.
                                         •   Work-based Learning.
                                         •   Vocational Skills Training
                                             projects off Center.
Present for Duty Off Center (PDOF)
                                         •   Recruiting drives.
                                                                                   None
                                         •   Escort Duty.
                                         •   Out-of-town job interviews.
                                         •   Apprenticeship jobs.
                                         •   Armed Forces processing.
                                                                                   AWOL absence in excess of 6
                                                                                   consecutive training days, or 12
                                        Failure to report to Center for
Absent Without Leave
                                        morning attendance.
                                                                                   days in a 6-month period, will
                                                                                   result in separation from the
                                                                                   program.
                                         •   Family compassion or hardship.
                                         •   Court appearance as a
                                             defendant.
                                         •   Pending results of disciplinary
                                             fact finding when deemed              Not to exceed 30 days per year,
Administrative Leave Without Pay             necessary to remove student           unless additional days are
                                             from the center.                      approved by the regional office.
                                         •   Elective medical/dental
                                             treatment.
                                         •   When all other leave time is
                                             exhausted.
                                                                                   A break is equivalent to 10
                                        Students are entitled to a scheduled       training days. Destination is
Winter/Summer Break                     summer break set by the Job Corps          usually home or alternate
                                        National Office.                           destination with limited
                                                                                   transportation cost.
                                         •   Death in Family.
                                         •   Life threatening illness or injury.
Emergency Leave                                                                    Not to exceed 10 training days.
                                         •   Serious illness or injury to
                                             student’s child.
                                         •   Center closure for emergency
                                             conditions.
                                         •   Court appearance.
                                         •   Securing medical/dental as
                                             concurred by Center health
                                             staff.
                                                                                   Not to exceed 10 training days
Administrative Leave                     •   Temporarily housed off Center
                                             as a precaution against harm or
                                                                                   per 6-month period.
                                             injury.
                                         •   Short-term active duty in
                                             National Guard.
                                         •   Other circumstances of an
                                             urgent personal nature.




8
    Policy Requirements Handbook - Administrative Support, Exhibit 6-1, July 1, 2001

U.S. Department of Labor—Office of Inspector General                                                                23
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                EXHIBIT B
                                                                               Page 1 of 3

      Differences in Separation Dates and Amount of PDOF Days Questioned

                                                                   PDOF
                              Separation Date    Separation Date   Days
               Student          per Center          per Audit    Questioned
                          1      04/14/04           10/14/03            183
                          2      09/17/03           05/15/03            125
                          3      09/11/03           06/07/03             96
                          4      10/08/03           07/14/03             86
                          5      02/25/04           12/08/03             79
                          6      02/18/04           12/02/03             78
                          7      12/10/02           09/25/02             76
                          8      01/22/04           11/11/03             72
                          9      11/26/03           09/15/03             72
                         10      03/20/03           01/13/03             66
                         11      10/22/03           08/26/03             57
                         12      10/09/03           08/21/03             49
                         13      10/09/02           08/22/02             48
                         14      03/16/04           01/31/04             45
                         15      10/17/02           09/03/02             44
                         16      11/06/03           09/25/03             42
                         17      12/17/03           11/05/03             42
                         18      05/01/03           03/21/03             41
                         19      12/17/03           11/06/03             41
                         20      11/26/02           10/16/02             41
                         21      06/25/03           05/16/03             40
                         22      09/30/03           08/22/03             39
                         23      01/13/04           12/05/03             39
                         24      02/12/03           01/06/03             37
                         25      03/05/03           01/27/03             37
                         26      10/23/02           09/16/02             37
                         27      11/20/02           10/15/02             36
                         28      03/24/04           02/17/04             36
                         29      05/21/03           04/16/03             35
                         30      10/22/03           09/17/03             35
                         31      06/11/03           05/09/03             33




U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                 EXHIBIT B
                                                                                Page 2 of 3

      Differences in Separation Dates and Amount of PDOF Days Questioned

                                                                    PDOF
                          Separation Date     Separation Date       Days
               Student      per Center           per Audit        Questioned
                     32      04/17/03            03/18/03                 30
                     33      11/12/03            10/13/03                 30
                     34      10/16/02            09/16/02                 30
                     35      04/09/03            03/10/03                 30
                     36      04/21/03            03/23/03                 29
                     37      09/24/03            08/26/03                 29
                     38      02/11/04            01/13/04                 29
                     39      03/10/04            02/11/04                 28
                     40      03/25/04            02/27/04                 27
                     41      02/25/04            01/29/04                 27
                     42      03/24/04            02/26/04                 27
                     43      06/25/03            05/29/03                 27
                     44      08/20/03            07/25/03                 26
                     45      04/16/03            03/21/03                 26
                     46      03/17/04            02/21/04                 25
                     47      09/30/03            09/06/03                 24
                     48      03/24/04            02/29/04                 24
                     49      06/04/03            05/11/03                 24
                     50      12/03/03            11/10/03                 23
                     51      09/30/03            09/08/03                 22
                     52      03/09/04            02/16/04                 22
                     53      05/28/03            05/06/03                 22
                     54      11/26/02            11/04/02                 22
                     55      02/27/03            02/05/03                 22
                     56      03/10/04            02/18/04                 21
                     57      05/07/03            04/16/03                 21
                     58      05/28/03            05/07/03                 21
                     59      11/12/03            10/22/03                 21
                     60      05/21/03            04/30/03                 21
                     61      10/02/02            09/11/02                 21
                     62      06/11/03            05/22/03                 20




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                EXHIBIT B
                                                                               Page 3 of 3

      Differences in Separation Dates and Amount of PDOF Days Questioned

                                                                    PDOF
                          Separation Date      Separation Date      Days
              Student       per Center            per Audit       Questioned
                   63        02/20/03             01/31/03                20
                   64        03/23/04             03/03/04                20
                   65        11/12/03             10/23/03                20
                   66        06/04/03             05/16/03                19
                   67        12/03/03             11/15/03                18
                   68        10/17/02             09/30/02                17
                   69        04/23/03             04/07/03                16
                   70        02/19/04             02/03/04                16
                   71        08/20/03             08/04/03                16
                   72        01/21/04             01/05/04                16
                   73        11/19/03             11/03/03                16
                   74        08/21/03             08/07/03                14
                   75        02/11/04             01/28/04                14
                   76        04/10/03             03/27/03                14
                   77        06/04/03             05/22/03                13
                   78        09/24/03             09/11/03                13
                   79        03/05/03             02/20/03                13
                   80        09/26/02             09/13/02                13
                   81        08/20/03             08/08/03                12
                   82        08/20/03             08/08/03                12
                   83        03/11/03             02/28/03                11
                   84        04/28/04             04/18/04                10
                   85        11/06/02             10/27/02                10
                   86        02/26/04             02/17/04                 9
                   87        01/29/03             01/21/03                 8
                   88        02/26/04             02/18/04                 8
                   89        06/11/03             06/03/03                 8
                   90        02/12/03             02/05/03                 7
                   91        11/19/03             11/12/03                 7
                   92        01/14/03             01/07/03                 7
                   93        03/25/04             03/18/04                 7
                   94        11/05/03             10/31/03                 5




U.S. Department of Labor—Office of Inspector General                                     27
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                EXHIBIT C
                                                                               Page 1 of 3

               Examples of Center Extending Students’ Separation Date
Example 1
 Status per
   Center             Dates        Days                 Auditor Comments
                                           The comment on Leave Request form showed
                                           the student had no job for food, clothing, or
                                           shelter.
Administrative
               10/06/2003 to
Leave                                5
               10/10/2003                  There was a letter dated October 3, from Kelly
Without Pay
                                           Services that stated the student accepted
                                           employment and will start on October 6.

Present for
                 10/11/2003 to             Last period the MAC supports the student was
Duty On                              3
                 10/13/2003                on Center.
Center
                                           PDOF Notification form showed the student
                                           would be on job search from October 14 to
                                           31.

                                           There was no evidence to show job search
                                           actually occurred.
                 10/14/2003 to
PDOF                                64
                 12/16/2003
                                           The training classes listed in the Center
                                           Training Progress Section of the Student
                                           Profile showed work-based for the period
                                           October 13, 2003 to April 14, 2004. This
                                           conflicted with the job search on the PDOF
                                           Notification Form.
                                           The MAC showed the student on PDOF, not
Present for
                 12/17/2003 to             on Center. The Attendance History Roster
Duty On                              1
                 12/17/2003                showed the student had a training related
Center
                                           absence for work-based learning.
                 12/18/2003 to
Winter Break                        18
                 01/04/2004
                                           The MAC showed check marks next to the
Present for
                 01/05/2004 to             student’s name indicating the student was not
Duty On                             101
                 04/14/2004                on Center. One day, January 15, “WBL” was
Center
                                           written next to the student’s name.
                                           We concluded that the student was done with
Separation                                 the program on October 13. Therefore, the
                 04/14/2004
Date                                       Center extended this student’s separation
                                           date by 184 days.


U.S. Department of Labor—Office of Inspector General                                     29
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                  EXHIBIT C
                                                                                 Page 2 of 3
              Examples of Center Extending Students’ Separation Date
Example 2
Status per
  Center           Dates         Days                 Auditor Comments
                                          The MAC showed the student’s last day on
                                          Center was May 14.

Present for                               The Student Profile showed the last training
               05/13/2003 to
Duty on                            2      course the student took was completed on
               05/14/2003
Center                                    February 21.

                                          The PCDP did not show any additional
                                          training activities either on or off Center.

                                          PDOF Notification form showed student would
               05/15/2003 to
PDOF                               13     be on job search from May 14 to June 30.
               05/27/2003
                                          There was no evidence to show that job
                                          search actually occurred.
Present for
Duty on        05/28/2003          1      The MAC did not show the student on Center.
Center
                                          PDOF Notification showed student would be
               05/19/2003 to              on job search from May 28 to June 26. There
PDOF                               28
               06/25/2003                 was no evidence to support that job search
                                          actually occurred.
Summer         06/26/2003 to
                                   17
Break          07/12/2003
Present for
Duty on        07/13/2003          1      The MAC did not show the student on Center.
Center
                                          PDOF Notification showed student would be
                                          on job search from July 14 to July 30. There
                                          were two had written s on the form extending
                                          the PDOF to September 17.
               07/14/2003 to
PDOF                               66
               09/17/2003
                                          There was no evidence to show job search
                                          actually occurred or that the student returned
                                          or telephoned the Center to discuss the job
                                          search results.
                                          We concluded that the student was done with
Separation                                the program on May 15. Therefore, the
               09/17/2003
Date                                      Center extended this student’s separation
                                          date by 125 days.


30                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                                EXHIBIT C
                                                                               Page 3 of 3

               Examples of Center Extending Students’ Separation Date
Example 3
  Status per
    Center            Dates        Days                 Auditor Comments
Present for
                 11/29/2003 to
Duty on                              3
                 12/01/2003
Center
                                           There were AWOL Occurrence Reports for
                                           December 2 and 5. On December 5, the
                                           student informed the Center she was
                                           employed and not returning to the Center.
                                           Therefore, we concluded the student was
                                           done with the program on December 5, and
Administrative                             the Center should have terminated her.
                 12/02/2003 to
Leave Without                        13
                 12/14/2003
Pay                                        By December 5, the student exceeded the
                                           maximum allowable AWOL days and the
                                           Center put the student on Administrative
                                           Leave Without Pay before putting the student
                                           on PDOF status until separation. There was
                                           no Leave Request form to support the
                                           Administrative Leave Without Pay.
                                           PDOF Notification form dated December 17
                                           showed the student would be on work-based
                 12/15/2003 to             learning until January 16.
PDOF                                 3
                 12/17/2003
                                           There was no evidence to show work-based
                                           learning actually occurred.
                 12/18/2003 to
Winter Break                         18
                 01/04/2004
                                           PDOF Notification form dated January 5
                                           showed the student would be on job search
                                           activities.
                 01/05/2004 to
PDOF                                 9
                 01/13/2004                There was no evidence to show job search
                                           actually occurred or that the student returned
                                           or telephoned the Center to discuss the job
                                           search results.
                                           We concluded that the student was done with
                                           the program on December 5. Therefore, the
Separation       01/13/2004
                                           Center extended this student’s separation
                                           date by 39 days.


U.S. Department of Labor—Office of Inspector General                                     31
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                  Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                   EXHIBIT D
         Schedule of Students Tested With Excessive Unexcused Absences


                                 Incidents of Excessive           Total Number of
             Student Tested      Unexcused Absences 9            Unexcused Hours
                   1                       24                                     585
                   2                       20                                     403
                   3                       18                                     472
                   4                       18                                     307
                   5                       18                                     257
                   6                       17                                     475
                   7                       16                                     390
                   8                       16                                     321
                   9                       16                                     321
                  10                       16                                     306
                  11                       15                                     353
                  12                       15                                     210
                  13                       14                                     404
                  14                       14                                     348
                  15                       13                                     336
                  16                       13                                     217
                  17                       12                                     256
                  18                       12                                     199
                  19                       11                                     323
                  20                       11                                     308
                  21                       11                                     175
                  22                       11                                     152
                  23                       11                                     151
                  24                       10                                     213
                  25                       10                                     210
                  26                       10                                     160
                  27                       10                                     139
                  28                        9                                     325
                  29                        9                                     199
                  30                        9                                     188
                  31                        9                                     167
                  32                        9                                     158
                  33                        9                                     142
                  34                        9                                     140
                  35                        9                                     138
                  36                        9                                     122
                  37                        9                                     103


9
 Incidents of excessive unexcused absences are defined as 5 or more unexcused absences (8 or more
after January 1, 2006) within a 2-week period.

U.S. Department of Labor—Office of Inspector General                                            33
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




Appendices




U.S. Department of Labor—Office of Inspector General                                     35
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                             APPENDIX A
BACKGROUND

Job Corps is a national program, administered by the U.S. Department of Labor (DOL),
Office of Job Corps, which offers a comprehensive array of career development
services to at-risk young women and men, ages 16 to 24 to prepare them for successful
careers. Job Corps was established by the Economic Opportunity Act of 1964 and is
currently authorized under the Workforce Investment Act of 1998, Part 670, Title I. Job
Corps’ objective is to provide young people with the skills they need to obtain and stay
employed, enter the Armed Forces, or enroll in advanced training or further education.

The Cincinnati Center is operated by the Management and Training Corporation
(MTC), under contract with Job Corps. The Center has both residential and non-
residential students. The Center’s capacity (OBS) for training is 225 students. OBS is
the percentage of capacity utilized on a cumulative basis for the program year. There
were two contracts in effect during the scope of our audit. DOL awarded the first
contract to MTC on April 29, 1999. The base contract in the amount of $10.7 million
covered the Center’s operational cost for the period of May 1, 1999, through April 30,
2001. The contract contained three option years and the cost of each option year was
$5.5 million, $5.7 million, and $5.8 million, respectively. According to the contract, the
contractor was to provide training and related support to 225 students. DOL awarded
the second contract to MTC on March 16, 2004. The base contract covered the
Center’s operational cost for the period of May 1, 2004, through April 30, 2006, and
totaled $13.3 million. The contracted contained three option years and the cost of each
option year was $6.9 million, $7 million, and $7.2 million respectively. According to the
contract, the contractor was to provide training and related support to 225 students.

Job Corps uses OBS as an efficiency measure that depicts the extent to which the
centers operate at full capacity. OBS is the percentage of capacity utilized on a
cumulative basis for the program year. According to MTC’s Residential Living Training
Manual, OBS is determined by the average number of students that are enrolled in the
program compared to the center’s contracted enrollment capacity. The manual further
states that OBS is affected by the Weekly Termination Rate (WTR). The WTR consists
of all students that separate from the program. The PRH, Appendix 501a, shows that
Job Corps’ goal for OBS for all centers is 100 percent.

In May 2002, Job Corps began implementing performance-based contracts. These
contracts tie option years, incentive fees, and bonuses directly to contractor
performance. The contract in effect for the period in which we questioned the use of the
PDOF status was not a performance-based contract because Job Corps awarded it
before May 2002. The subsequent contract awarded in March 2004, was a
performance-based contract. The Job Corps Chicago Regional Office was responsible
for monitoring the Center’s contracted operator.




U.S. Department of Labor—Office of Inspector General                                     37
Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                     38
Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                             APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA
Objectives
OIG initiated this audit because of issues identified in a previous audit of allegations
raised in a complaint made against MTC, operator of the Center. The previous audit
substantiated that the Center used PDOF and other leave to extend the students’
separation dates beyond their actual departure from the Center and that there was a
pattern of excessive unexcused absences. However, the previous audit did not
determine the effect of extending the stay of the students, and the audit could not
determine if the Center took appropriate action on unexcused absences because the
Center destroys the student Center Standards Office file 6 months after the separation
date unless the student separates from the Job Corps Program for disciplinary reasons.
Our objectives were to determine:

  1. To what extent did the Center misuse PDOF and other leave to artificially extend
     students’ length of stay and what was the effect?

  2. Did the Center take action to address the behavior of students who had excessive
     unexcused absences from class?

Scope

For the use of PDOF leave, our audit covered students at the Center during the period
July 1, 2002, through May 31, 2006. For the action taken to address students with
excessive unexcused absences from training, our audit covered students enrolled at the
Center during the period June 1, 2005, through May 31, 2006. We conducted our audit
in accordance with Government Auditing Standards for performance audits. Fieldwork
at the Center was conducted August 28, 2006, to December 16, 2006.

Methodology

Present for Duty Off Center (PDOF)

To determine the extent the Center used PDOF status to artificially extend students’
length of stay; we obtained the universe of students at the Center during the period July
1, 2002, through May 31, 2006 who were on 1 or more days of PDOF status. During
this period, the Center enrolled over 1,400 students. We identified 264 students who
were on 1 or more days of PDOF status. Of the 264 students, we selected for testing
all students who had more than 10 days in PDOF status. We based our judgmental
selection on the Center SOP for using PDOF status that required initial job search leave
was for a period of 5 days and any subsequent leave or leave extension for not more
than a combined limit of 10 training days per 6-month period. The number of students
selected for testing totaled 150.




U.S. Department of Labor—Office of Inspector General                                     39
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

We interviewed Center management and staff in order to understand the process for
putting students on PDOF leave status. Center management consisted of the Center
Director, Finance Director, Center Standards Officer, Counselor Manager, and the
Career Development Services Manager. We obtained and reviewed the Center's
Standard Operating Procedures for the use of PDOF leave for job search and work-
based learning. We reviewed the Job Corps Chicago Region’s Career Development
Services System Plan dated August 2001.

We reviewed several types of documentation provided by the Center to support the
students' PDOF leave status. These included:

     •   Student Profiles (The Student Profile provides a complete history of a student’s
         activities while he/she is at the Center.)
     •   Center case s
     •   Present for Duty Off-Center Notification forms
     •   AWOL Occurrence Records
     •   Leave Request Forms
     •   Documents explaining leave
     •   Travel documents
     •   Personal Career Development Plan (PCDP). (The PCDP is a case record that
         Center staff are expected to use to document counseling sessions, progress
         updates, and job search and transition services for potential graduates.)
     •   Morning Accountability Count report. (This report shows if the student was at the
         Center.)

To calculate the amount of liquidated damages the contractor operating the Center was
subject to for failing to comply with the contract and Job Corps requirements for
terminating students, we determined the refundable cost for each day the students were
retained beyond the date when the Center should have terminated them. We calculated
the costs per day by dividing total contract amount for each year by 365 days.

Unexcused Absences

We obtained the universe of all students who had at least one unexcused absence from
class for the period June 1, 2005 through May 31, 2006. From the universe of 471
students, we used a data base tool to extract all students who had at least one or more
incidents of excessive unexcused absences from class. We defined an incident of
excessive unexcused absences as when any student had 5 or more absences within a
2-week period (8 or more after January 1, 2006). The number of students totaled 406.
From the 406 students who had one or more incidents of excessive unexcused
absences, we identified the students who had more than 5 incidents of excessive
unexcused absences. The number of students totaled 99. After five incidents, we
reasoned that the student should have changed his or her behavior after going through
the multi-step progressive actions provided in the Center’s SOP. Next, we judgmentally
selected for testing all students who had 9 or more incidents of 5 or more unexcused
absences within a 2-week period. We considered these the worst offenders of the

40                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

Center’s policy on class attendance. The number of students totaled 50. Of the 50,
counseling records were not available for 13 students because they had separated over
6 months from the time we started our audit at the Center. The Center destroys student
counseling records 6 months after the student’s termination date, unless they are
terminated for disciplinary reasons. We found that this practice complied with the PRH.
Therefore, the counseling records were available for 37 of the 50 students identified for
testing.

We interviewed Center management and staff to understand the process addressing
students who have class attendance problems. Center management consisted of the
Center Director, Finance Director, Center Standards Officer, Counselor Manager, and
the Career Development Services Manager. We reviewed the PRH and the Center's
SOP dealing with classroom attendance.

We performed testing to determine if the Center followed its policy on classroom
attendance. The testing included identifying any action taken by the Center with the
student that dealt with addressing classroom attendance problems. The Center
provided student counseling records and any other documentation dealing with
unexcused absences..

We performed data reliability testing. We tested data provided to us by the Job Corps
Data Center and the Center by comparing data elements to supporting documentation
in the student files maintained by the Center. We followed up and reconciled all
differences to ensure we used the actual data. Therefore, we concluded the data we
used were sufficiently reliable to meet our objectives.

We did not test the overall internal controls of the Center’s Job Corps program or
perform a complete audit of the Center’s Job Corps program. We only performed the
necessary fieldwork and tested controls related to the use of PDOF leave and action
taken to address unexcused absences.

Criteria

We used the following criteria to perform our audit.

   •   Job Corps’ Policy Requirements Handbook, July 1, 2001, unless other wise d.

   •   Job Corps Chicago Regional Office Career Development Services System
       (CDSS) plan August 2001

   •   Cincinnati Job Corps Center’s Standard Operating Procedures, dates d in report
       details.

   •   MTC’s Residential Living Training Manual.



U.S. Department of Labor—Office of Inspector General                                     41
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS


                   AWOL        Absent Without Leave

                   CDSS        Career Development Services System

                   Center      Cincinnati Job Corps Center

                   CIS         Center Information System

                   CSO         Center Standards Office

                   DOL         Department of Labor

                   MAC         Morning Accountability Check Report

                   MAPP        Managers Accessing Panther Pride

                   MTC         Management and Training Corporation

                   OBS         Onboard Strength

                   OIG         Office of Inspector General

                   PDOF        Present For Duty Off Center

                   PRH         Policy Requirements Handbook

                   SOP         Standard Operating Procedures

                   WTR         Weekly Termination Rate




U.S. Department of Labor—Office of Inspector General                                     43
Report Number: 03-07-003-01-370
Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-003-01-370
                 Audit of Cincinnati Job Corps Center’s Student Leave and Unexcused Absences

                                                                             APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                     45
Report Number: 03-07-003-01-370
